<html>
<title> - REVIEW OF THE U.S. GOVERNMENT'S ROLE IN PROTECTING INTERNATIONAL RELIGIOUS FREEDOM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                REVIEW OF THE U.S. GOVERNMENT'S ROLE IN
               PROTECTING INTERNATIONAL RELIGIOUS FREEDOM

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 11, 2017

                               __________

                           Serial No. 115-61

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
              
              
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-292 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec8b9c83ac8f999f988489809cc28f8381c2">[email&#160;protected]</a>               
              
              
             
              
              
              
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Stacey E. Plaskett, Virgin Islands
Mark Walker, North Carolina          Val Butler Demings, Florida
Rod Blum, Iowa                       Raja Krishnamoorthi, Illinois
Jody B. Hice, Georgia                Jamie Raskin, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Jimmy Gomez, California
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                    William McKenna General Counsel
                      Cordell Hull, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Minority Member
Justin Amash, Michigan               Val Butler Demings, Florida
Paul A. Gosar, Arizona               Peter Welch, Vermont
Virginia Foxx, North Carolina        Mark DeSaulnier, California
Jody B. Hice, Georgia                Jimmy Gomez, California
James Comer, Kentucky                Vacancy
                                     Vacancy
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 11, 2017.................................     1

                               WITNESSES

The Honorable Michael G. Kozak, Senior Advisor, Bureau of 
  Democracy, Human Rights and Labor, U.S. Department of State
    Oral Statement...............................................     5
    Written Statement............................................     8
Ms. Kristina Arriaga de Bucholz, Vice Chair, Commission on 
  International Religious Freedom
    Oral Statement...............................................    12
    Written Statement............................................    14
Thomas F. Farr, Ph.D., President, Religious Freedom Institute, 
  Director, Religious Freedom Research Project, Georgetown 
  University, Associate Professor, Walsh School of Foreign 
  Service, Georgetown University
    Oral Statement...............................................    37
    Written Statement............................................    39
Mr. Rob Berschinski, Senior Vice President, Policy, Human Rights 
  First
    Oral Statement...............................................    43
    Written Statement............................................    45

 
                  REVIEW OF THE U.S. GOVERNMENT'S ROLE
             IN PROTECTING INTERNATIONAL RELIGIOUS FREEDOM

                              ----------                              


                      Wednesday, October 11, 2017

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Russell, Duncan, Foxx, 
Hice, Comer, Lynch, Demings, Welch, and Gomez.
    Also Present: Representatives Gowdy and Palmer.
    Mr. DeSantis. The Subcommittee on National Security would 
come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    The right to practice your religion freely is one of the 
cornerstone freedoms we have in our country. In fact, 
demonstrating its importance, freedom of religion is in the 
very first amendment of the Bill of Rights in our Constitution. 
Other countries take a narrower view of freedom of religion. 
Some impose an official religion, while others actively 
persecute those practicing a disfavored religion.
    We are pleased to have here today witnesses from the State 
Department; the U.S. Commission on International Religious 
Freedom, an independent, bipartisan government agency charged 
with monitoring the religious environment overseas; the 
president of Religious Freedom Institute; and a witness from 
the nonprofit group Human Rights First.
    In the State Department's most recent annual report on 
international religious freedom, the Department noted the U.S. 
Government promotes religious freedom because countries that 
effectively safeguard this human right are more stable, 
economically vibrant, and peaceful. The failure of governments 
to protect these rights breeds instability, terrorism, and 
violence.
    Looking at countries with more restrictive religious 
practices, one sees that many of them have significant national 
security concerns. One commentator, a former high-level State 
Department and NSC official, surveyed a number of conflicts in 
U.S. history and noted, quote, ``Including World War II, every 
major war the United States has fought over the past 70 years 
has been against an enemy that also violated religious 
freedom.'' As examples, he pointed to Nazi Germany, North 
Korea, North Vietnam, and Saddam Hussein's Iraq, as well as 
other sub-war conflicts, including the Cold War standoff with 
Soviet communism. The subcommittee is interested in hearing 
about the correlation between national security risks and 
restrictions on the freedom of religion abroad.
    We had a hearing on this issue in 2014, and there have been 
some developments since then. Just last December, Congress 
overwhelmingly passed the Frank Wolf International Religious 
Freedom Act.That law amended the 1998 International Religious 
Freedom Act, which made clear that international religious 
freedom is a national security issue.
    The Wolf Act contemplates using a whole-of-government 
approach, including our national security agencies, to 
encourage religious freedom abroad. One way we can do this is 
already enshrined in Federal law: allowing the denial of a visa 
to come into the United States for a foreign government 
official responsible for particularly severe violations of 
religious freedom.
    To help Congress and the American people better understand 
religious freedom abroad, both the State Department and USCIRF 
produce annual reports discussing countries' levels of 
religious freedom. By law, State is required to designate 
countries of particular concern. State's deadline this year is 
in mid-November, and I'm eager to see which countries are 
designated.
    The report listed countries of particular concern, but it 
also listed terrorist entities like the Islamic State, the 
Taliban, and Al Shabaab. It goes without saying that those 
enemies are hostile to the free exercise of religion and pose 
national security risks to the American people.
    Looking at the USCIRF list of countries of particular 
concern, there are a number of which are potential national 
security threats, including China, Iran, North Korea, Pakistan, 
Russia, and Syria, among others.
    To help the United States' mission to enable religious 
freedom worldwide, the International Religious Freedom Act 
required the appointment of a Senate-confirmed ambassador. 
President Trump nominated former Senator and current Governor 
of Kansas Sam Brownback for the position, and he has had his 
confirmation hearing before the Senate Foreign Relations 
Committee just last week.
    As this subcommittee discussed during the 2014 hearing, the 
ambassador position sat vacant for extended stretches during 
the Obama administration. It is important that the Senate move 
quickly to confirm Governor Brownback. The world must know that 
the United States takes its role seriously as a world leader in 
promoting religious freedom.
    Testifying today from the State Department is Ambassador 
Michael Kozak, Senior Advisor for Democracy, Human Rights, and 
Labor. Also testifying is Kristina Arriaga, who serves as Vice 
Chair on the U.S. Commission on International Religious 
Freedom.
    Joining us, as well, is Professor Thomas Farr, who is 
president of the Religious Freedom Institute, the director of 
the Religious Freedom Research Project at Georgetown 
University, and associate professor of the practice of religion 
at Georgetown School of Foreign Service. Finally, we have Rod 
Berschinski, a senior vice president of policy at Human Rights 
First.
    I want to thank the witnesses for their attendance. I look 
forward to your testimony today.
    And, at this point, I'd like to recognize the ranking 
member of the subcommittee, Mr. Lynch, for his opening 
statement.
    Mr. Lynch. Thank you, Mr. Chairman. I'd like to thank you 
for holding this hearing to examine the progress of U.S. 
Government efforts to promote international religious freedom.
    I'd also like to welcome and thank our panel of witnesses 
this morning for its willingness to come and help this 
committee with its work.
    The U.S. framework to address international religious 
persecution is based on our shared commitment to advancing 
religious freedom as a fundamental and inalienable human right.
    It also recognizes that the protection of religious freedom 
abroad is critical to our national security. As recently stated 
by Secretary of State Rex Tillerson--this is a quote--``Where 
religious freedom is not protected, we know that instability, 
human rights abuses, and violent extremism have a greater 
opportunity to take root,'' close quote.
    Similarly, the independent U.S. Commission on International 
Religious Freedom underscores that religious freedom is a vital 
element of national security and critical to ensuring a more 
peaceful, prosperous, and stable world.
    In furtherance of these objectives, the Office of 
International Religious Freedom at the State Department 
monitors religious persecution and discrimination worldwide and 
releases an annual report detailing the status of international 
freedom in each country. The office also identifies--and this 
is a particular term to the study--countries of particular 
concern for subsequent designation by the Secretary of State 
given their severe violations of religious freedom.
    In announcing the first annual report on religious freedom 
issued under the Trump administration in August of 2017, 
Secretary Tillerson highlighted the particular threat posed by 
the terrorist group known as ISIS as a result of its genocidal 
activities targeting Yazidis, Christians, Shia Muslims, and 
other religious and ethnic minorities in Iraq and Syria. This 
latest report also notes that 10 nations were rightfully 
designated as countries of particular concern--those have been 
listed by my colleague, the chairman--in October of 2016, 
including, again, North Korea, Iran, China, Saudi Arabia--
excuse me--and Saudi Arabia.
    As the State Department continues its work to identify 
countries of particular concern for 2017, the Office of 
International Religious Freedom should coordinate with the 
United States Commission on International Religious Freedom. 
Congress has statutorily authorized this bipartisan and 
independent commission to conduct its own oversight in this 
area and develop policy recommendations to further inform the 
State Department's designation process.
    Importantly, the Commission has strongly recommended that 
the State Department add six countries to its list for 2017 due 
to their perpetration and/or tolerance of systematic, ongoing, 
and egregious violations of religious freedom.
    Chief among these additional countries is Russia. This 
year, in fact, marks the first time that the Commission has 
recommended Russia as a country of particular concern, in light 
of its continued religious freedom violations in the Russian 
mainland as well as activities in Ukraine and Crimea. According 
to the Commission's 2017 annual report, Russia presents a 
unique case in religious persecution, as the sole state to have 
not only continually intensified its repression of religious 
freedom but also to have expanded its repressive policies to 
the territories of a neighboring state by means of military 
invasion and occupation.
    The repressive policies implemented by the Russian 
Government include administrative harassment, arbitrary 
imprisonment, and extrajudicial killing, as well as the 
enactment of new laws in 2016 that criminalize all non-
government-sanctioned private religious speech.
    Moreover, the Russian Supreme Court recently upheld a 
Justice Ministry order calling for the liquidation of the 
Jehovah's Witnesses denomination and prohibiting its operations 
as a so-called extremist organization. Russian security forces 
also continue to subject minority Muslim groups to fabricated 
terrorism charges, kidnappings, and disappearances.
    I strongly believe that the State Department should accept 
the Commission's recommendation and add Russia to the 
designation list.
    Reports of religious persecution and intolerance in Russia 
are not at all surprising, considering the impunity with which 
the Russian Government continues to conduct itself on the world 
stage. In January of 2017, our Nation's intelligence community 
issued an unclassified and unprecedented high-confidence 
assessment that Russian President Vladimir Putin ordered an 
influence campaign aimed at the 2016 U.S. Presidential 
election. This malicious campaign included cyber breaches and 
other covert intelligence operations, as well as nefarious 
efforts undertaken by Russian Government agencies, state-
sanctioned media, and even paid social-media users to spread 
Russian-desired messaging and to interfere in the election.
    To date, our committee has not held a hearing to examine 
that intelligence-community-wide assessment that Russia 
attempted to undermine our national security and compromise the 
very foundation of our democratic process.
    And, in closing, I just want to say that I am very happy 
that the name of Frank Wolf was resurrected in today's hearing. 
I had a wonderful part of my tenure serving with Frank Wolf, 
and I know he represented the 10th Congressional District in 
Virginia. It is great that we're carrying on the work of such a 
great champion of religious freedom.
    Mr. Chairman, I look forward to discussing these and other 
issues with today's witnesses, and I yield back the balance of 
my time.
    Mr. DeSantis. I thank the ranking member.
    I have introduced the witnesses in my opening statement, 
but, just for the record, we do have Ambassador Kozak, we have 
Kristina Arriaga, we have Dr. Farr, and we have Mr. 
Berschinski.
    So we appreciate you all being here. Thank you.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So if you could all please rise, raise 
your right hand.
    Do you solemnly swear that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Thank you. Please be seated.
    All witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made a part of the record. As a reminder, the clock in front of 
you shows your remaining time. The light will turn yellow when 
you have 30 seconds left and red when your time is up. Please 
also remember to press the button to turn your microphone on 
before speaking.
    And, with that, I would like to recognize Ambassador Kozak 
for 5 minutes.

                       WITNESS STATEMENTS

          STATEMENT OF THE HONORABLE MICHAEL G. KOZAK

    Mr. Kozak. Thank you, Mr. Chairman. For you and members of 
the committee, thank you for holding this hearing to focus 
attention on international religious freedom--a cherished 
American value, a universal human right, and a Trump 
administration foreign policy priority.
    As you mentioned, President Trump has nominated Governor 
Brownback to be the Ambassador-at-Large for International 
Religious Freedom. Amongst his other accomplishments, he's 
coauthored two books on the subject and, as Senator, was a key 
sponsor of the International Religious Freedom Act. We could 
not ask for a more distinguished nominee.
    President Trump has stated that the United States looks 
forward to a day when people of all faiths--Christians and 
Muslims and Jewish and Hindu--can follow their hearts and 
worship according to their conscience. Vice President Pence has 
said, under President Trump, America will continue to stand for 
religious freedom of all people of all faiths across the world.
    In August, Secretary Tillerson mentioned that conditions in 
many parts of the world are far from ideal. As was mentioned, 
he stated that ISIS is clearly responsible for genocide against 
Yazidis, Christians, and Shia Muslims and is responsible for 
crimes against humanity and ethnic cleansing.
    United States efforts to help include our leadership of the 
Global Coalition to Defeat ISIS. Coalition-backed forces have 
liberated more than three-quarters of the territory ISIS once 
controlled in Iraq and about two-thirds of the territory it 
once controlled in Syria. ISIS has not regained control of any 
of this territory due in part to the Coalition's work to 
stabilize liberated communities.
    But more robust steps must be taken in coming months so 
that Iraq's religious minority communities can provide for 
their own security. We continue to support the Iraqi 
Government's efforts to enhance local government and establish 
local security forces.
    Stabilization projects in Iraq include minorities ISIS 
targeted for genocide. In Sinjar District, a predominantly 
Yazidi area, the U.N. Development Programme has completed the 
rehabilitation of the Sinouni hospital and primary health 
clinic, seven schools, and seven water wellheads and pumps, and 
has more projects planned for later this year. In the historic 
Christian town of Bartella, trained explosive ordnance disposal 
teams have cleared schools, medical facilities, and other key 
infrastructure.
    These efforts are setting up conditions for displaced 
people to voluntarily return to their home. We will ensure 
stabilization assistance reaches all liberated areas as quickly 
as possible.
    Our bureau is working on programs that empower minorities 
to advocate on issues such as key pieces of legislation. 
Programs also promote stabilization efforts, more equitable and 
representative political participation, and access to services 
and governance structures. These programs engage the majority 
as well as minority communities, recognizing that preservation 
of ethnic and religious minorities in Iraq cannot be sustained 
without support and understanding of their value within 
mainstream Iraqi society.
    Another global concern is our work to reform discriminatory 
laws that deprive many of their ability to exercise their 
religious belief. Iran, for example, has 20 individuals 
executed in 2016 on charges that included waging war again God. 
Members of the Baha'i community are in prison for abiding their 
beliefs.
    In Saudi Arabia, the government does not recognize the 
right of non-Muslims to practice their religion in public and 
has used prison sentences, lashings, fines for apostasy, 
atheism, blasphemy, and insulting the state's interpretation of 
Islam.
    In Turkey, non-Sunni Muslims face discrimination and 
violence. The United States continues to advocate for the 
immediate release of Pastor Andrew Brunson, who has been 
wrongfully imprisoned there.
    In Bahrain, the government continued to target Shia 
clerics, and members of the community were discriminated 
against in government employment, education, and the justice 
system.
    In China, the government tortures, detains, and imprisons 
thousands for practicing their religious beliefs.
    In Pakistan, two dozen people are on death row or life 
imprisonment for blasphemy.
    And, in Sudan, the government arrests and intimidates 
clergy.
    We appreciate the committee raising the connection between 
the state of international religious freedom and America's 
national security. Our efforts to defend religion, in brief, is 
in our national interest. Places where religious freedom is 
denied, left unattended, can become full-blown security crises 
with effects far beyond their immediate neighborhoods. Mass 
migration caused by persecution can be destabilizing. And 
resentment borne of discrimination and persecution for one's 
faith can create a fertile ground for radicalization to 
violence and terrorist recruitment.
    In closing, I would note that the International Religious 
Freedom Act calls on our government to stand for liberty and 
stand with the persecuted, to use and implement appropriate 
tools in the United States foreign policy apparatus, including 
diplomatic, commercial, charitable, educational, and cultural 
channels, to promote respect for religious freedom by all.
    We appreciate that these issues have always had strong 
bipartisan support, and we want to work closely with Congress 
to help persecuted minorities. Thank you again for holding this 
hearing to review the U.S. role in protecting international 
religious freedom.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Kozak follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Ms. Arriaga, you're up for 5 minutes.

            STATEMENT OF KRISTINA ARRIAGA DE BUCHOLZ

    Ms. Arriaga. Thank you. My name is Kristina Arriaga. I'm 
the vice chairwoman of the United States Commission on 
International Religious Freedom.
    Today, I'd like to offer three observations, which I 
explore more fully in my written testimony. Thanks for 
accepting it for the record.
    Number one, we ignore religious freedom at our own peril. 
The U.S. Government must factor into its foreign policy 
religious freedom, a foundational human right, a source of 
peace, stability, and economic vitality, and a key factor in 
countries worldwide. For example, those whose religious freedom 
has been violated can become susceptible to extremist 
indoctrination, and governments that commit violations or allow 
them to occur with impunity often sow the seeds of their own 
instability.
    Number two, some view religion as competition or as 
alternate source of authority. This is dangerous to the United 
States. These countries use national security concerns to 
justify violating religious freedom, they pit groups against 
each other to enhance their own power, they allow violators to 
act with impunity, and they incite vigilante groups and others 
to violence. However, by exercising control in these ways, 
governments in Russia, Syria, Iraq, Saudi Arabia, and Pakistan, 
for example, create more instability, not enhance authority.
    Number three, hit them where it hurts. No one who violates 
human rights in their own country should be granted a visa to 
come to this country. The U.S. Government has tools to address 
religious freedom violations, including the 1998 IRFA, the 2016 
Frank Wolf International Religious Freedom Act, and the Global 
Magnitsky Act. However, we must have the political will to use 
these tools, and that is sometimes where we can fall short.
    Congress plays an indispensable role, including by holding 
hearings, passing new legislation, and appropriating ample 
funding, exercising oversight, focusing on accountability, 
continually creating and refining the tools needed to address 
challenges, including accountability for genocide and crimes 
against humanity, using your own bully pulpits to highlight 
violations, and advocating for those who are persecuted and 
detained.
    I will end by focusing on two issues dear to my heart: 
religious prisoners of conscience and women and religious 
freedom.
    I hope all members can support prisoners through the Tom 
Lantos Commission Defending Freedoms Project, launched in 
conjunction with USCIRF and Amnesty International USA. To do 
our part, each one of us are advocating for a prisoner as part 
of our Religious Prisoner of Conscience Project. I chose Fariba 
Kamalabadi, who is in Iran in prison simply because she's a 
Baha'i.
    Last week, during a USCIRF delegation visit to Turkey, 
Commissioner Sandra Jolley and I drove to the remote prison of 
Kiriklar to meet with Pastor Andrew Brunson. We were the first 
to see him besides his wife, attorney, and the consular 
officer. He has been imprisoned on fabricated charges.
    This picture--he doesn't look like this anymore. He's lost 
over 50 pounds. He has suffered tremendous psychological 
pressure. And we must continue to advocate for his immediate 
release.
    Finally, building lasting peace and security requires the 
participation of women. Especially during conflicts, women are 
often targeted for violence and discrimination, with religion 
or the excuse of religion used to disempower women. In fact, it 
is a betrayal of the very foundations of freedom of religion or 
belief whenever it's misused to justify inexcusable and harmful 
practices, such as female genital mutilation, child brides, and 
forced conventions. Unfortunately, this practice has been 
exported. In our own country, there are half a million girls at 
risk for female genital mutilation.
    My written testimony ended by quoting Martin Luther King. 
Here, I would like to quote Yogi Berra, who said, ``If you come 
to a fork in the road, take it.'' The United States must commit 
to travel the road of advocating for international religious 
freedom with determination, passion, and commitment.
    Thank you very much.
    [Prepared statement of Ms. Arriaga follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Dr. Farr, you're recognized for 5 minutes.

               STATEMENT OF THOMAS F. FARR, PH.D.

    Mr. Farr. Thank you, Mr. Chairman.
    My message to you today is straightforward and hopeful. 
Advancing religious freedom more successfully in our foreign 
policy can help the victims of religious persecution abroad and 
increase the security of the American people. But if we are to 
succeed, we will need to change some of our thinking and 
strengthen some of our programs at the State Department.
    Growing evidence indicates that religious freedom can 
undermine religion-related terrorism. The evidence applies to 
violence that emanates from any religion, but the primary 
threat to U.S. national security and that of most other 
nations, especially Muslim-majority nations, is Islamist 
terrorism.
    Our approach to terrorism as a religious freedom issue has 
understandably focused on the minority religious groups 
victimized by the terrorists or by governments. The methods 
historically used by the State Department to address religious 
persecution consist in large part of annual reports and annual 
designations of the worst violators. The International 
Religious Freedom Act also authorized economic sanctions.
    These reports are important. They are vitally important. 
They are generally accurate and reliable. But they are entirely 
diagnostic in nature. They shine a light on the problem but do 
little to solve it.
    Unfortunately, economic sanctions are rarely effective. 
When they've been tried, they haven't worked. Governments are 
unlikely to change their religion policies because of sanctions 
alone. Additional policies are needed to supplement the 
leverage provided by sanctions or other negative incentives the 
United States might impose.
    State Department-funded programs are a good place to start, 
especially if those programs provide convincing reasons to the 
target nations why religious freedom is in their interests. 
Under former Religious Freedom Ambassador David Saperstein, 
program funding increased to $20 million a year. But even that 
amount pales in comparison to other programs intended to 
protect American national security.
    Unfortunately, the religious freedom programs that do 
exist, such as those mentioned by Ambassador Kozak, which are 
often splendid programs, are not part of a strategy, certainly 
not an all-of-government strategy. They are spread too thin. 
They are too ad hoc to have any appreciable impact on Islamist 
terrorism or to convince governments that religious freedom is 
in their interest.
    The unfortunate reality is that our religious freedom 
policy has been isolated from the mainstream of U.S. foreign 
policy. Until recently, it's been largely overlooked as a means 
of promoting stability and national security.
    Social scientists at the Religious Freedom Institute, where 
I work, are demonstrating something that America's founders 
understood instinctively: Religious freedom forms the basis of 
other human rights. It's necessary for the success of any 
society, especially highly religious societies.
    The evidence shows that religious freedom has a causal 
impact on social, political, and economic goods, such as long-
term political stability, economic growth, and undermining 
religion-related violence. Societies that lack religious 
freedom are far more likely to incubate, experience 
domestically, and export internationally religion-related 
terrorism.
    The reverse is also true; societies that protect religious 
freedom generally do not incubate or export violence and 
terrorism. Several Muslim-majority states in West Africa, for 
example, have avoided the violent extremism that plagues other 
Muslim states. Each has significant legal protections for 
religious freedom of Muslims and non-Muslims. The result is a 
stabilizing religious pluralism that discourages religious 
extremism.
    Let me conclude with some practical recommendations.
    Religious freedom policy can advance U.S. national security 
by focusing less on rhetorical enunciations and combining 
practical incentives with convincing self-interest arguments.
    For example, the State Department recently announced the 
withholding of $290 million in aid to Egypt because of its 
harsh restrictions on religious communities and other human 
rights violations. This is a good start but unlikely to change 
things on the ground. Egypt is not going to change its 
religious freedom policies for $290 million.
    The U.S. should also provide the Egyptian Government with 
hard evidence that their repressive laws and policies--that 
altering their repressive laws and policies will benefit Egypt, 
for example, by reducing the violent extremism that is harming 
the country's all-important tourist industry.
    Iraq provides another opportunity. Since 2014, the U.S. has 
allocated nearly $1.7 billion in humanitarian aid to Iraq, but 
most of that aid has not reached the Christian minorities 
designated by us as victims of ISIS genocide. This is a U.S. 
national security problem as well as a humanitarian problem. 
Religious pluralism is a necessary condition for long-term 
stability in Iraq. If minorities do not return and stay, Iraq 
will likely become a perpetual Shia-Sunni battleground, where 
terrorism flourishes.
    Success in these efforts will not come easy, Mr. Chairman, 
but the long war against Islamist terrorism cannot be won with 
law enforcement and military force alone. America needs new 
ideas and new combatants to win this war, and religious freedom 
should be part of the mix.
    Thank you.
    [Prepared statement of Mr. Farr follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Berschinski, you're recognized for 5 minutes.

                  STATEMENT OF ROB BERSCHINSKI

    Mr. Berschinski. Thank you, Mr. Chairman, and thank you for 
having me here today to testify.
    I work in an organization whose mission is to foster 
American global leadership on human rights, including religious 
freedom, not just as a moral obligation but also as a vital 
national interest. I bring this perspective to today's hearing 
and hope that it will inform discussion this morning in at 
least three ways.
    First, it's important to recognize that the U.S. 
Government's work to ensure that foreign governments do not 
encroach on an individual's rights to freedom of religion and 
conscience will be less effective if these efforts are divorced 
from work to uphold other fundamental freedoms.
    As several have mentioned, a review of the U.S. 
Government's list of countries of particular concern bears out 
this fact. In no state is religious intolerance an outlier to a 
more widespread pattern of abuses. Simply put, repressive 
governments tend to seek control over any organized body of 
individuals and to view those outside of the government's 
direct control as a threat to their power.
    Thus, attacks on religion and belief often relate to and 
sometimes stand in for attacks on political opposition, human 
rights activists and lawyers, as Ms. Arriaga mentioned, on 
women, on LGBT people, and on ethic minorities. This fact is 
worth bearing in mind as this committee considers the 
administration's ability to promote religious liberty and 
reduce attacks on religious communities.
    As this committee is no doubt aware, the administration's 
budget request of $37.6 billion to fund the State Department 
and USAID for fiscal year 2018 is roughly 30 percent lower than 
that which Congress appropriated for fiscal year 2017. The 
request for human-rights-related work, which includes funding 
dedicated to international religious freedom, seeks to cut even 
deeper. While both the House and Senate to date have largely 
rejected these draconian cuts, the fact that they were both 
proposed in the first place should raise questions.
    The administration deserves credit for nominating a 
distinguished public servant for the position of Ambassador-at-
Large for International Religious Freedom. Yet the White House 
has yet to announce a nominee for the position of Assistant 
Secretary of State for Democracy, Human Rights, and Labor or 
nominees to lead the Bureaus of East Asian and Pacific Affairs 
and Near Eastern Affairs, among others. These are areas of 
ongoing gross abuses against religious minorities, and we 
deserve to have appropriately credentialed leaders focusing on 
them daily.
    Secretary of State Tillerson recently wrote that, while he 
intends to retain the position of Ambassador-at-Large for 
International Religious Freedom and place other envoys under 
this position, he did not plan to have the Ambassador-at-Large 
report directly to him, which, in my analysis, does not appear 
to conform to the Frank Wolf Act.
    The Secretary also indicated that he sought to eliminate 
other positions working to advance religious tolerance. This 
includes the U.S. Special Envoy to the Organization of Islamic 
Cooperation, which was created during the Bush administration 
and has since performed a valuable, tangible function: to 
increase protections for believers and nonbelievers alike.
    Additionally, the administration has elected, through its 
various travel bans and recent decision to cap the number of 
refugee admissions at an all-time low, to take steps that will 
be seen by audiences around the world as not in keeping with 
America's leadership role in promoting religious freedom and 
protecting the most vulnerable.
    This brings me to my second point, which is that among the 
greatest challenges to religious freedom today is that foreign 
governments are acting in the name of countering terrorism to 
repress their citizens.
    As we have seen from countries as diverse as Azerbaijan, 
Bahrain, China, Iran, Russia, Saudi Arabia, and Tajikistan, 
governments are increasingly conflating peaceful religious 
expression with terrorist activity in order to justify 
repression. Not only do such laws and policies regularly 
threaten religious communities and other peaceful civic 
organizations, they often have the effect of advancing the very 
radicalization that they are ostensibly meant to confront.
    In the Middle East, these actions contribute to the 
heightened sectarian nature of the wars in Syria, Iraq, and 
Yemen. Countries including Azerbaijan, China, and Tajikistan 
have moved aggressively against members of peaceful political 
opposition groups and religious communities, often justifying 
their actions on dubious counterterrorism grounds. And, as was 
mentioned, in Russia, recently amended anti-extremism laws have 
established a legal framework that allows the state to curtail 
essentially all forms of peaceful dissent as well as disfavored 
religious speech and practice.
    Concluding with a third point, I'd like to touch on an 
issue that deals with rising anti-Semitism in Europe, a trend 
that the U.S. Government should do more to address head-on.
    Examples of anti-Jewish violence from members of Muslim 
communities in France and elsewhere, as well as recurring 
credible allegations of anti-Semitic statements by members of 
the U.K.'s Labour Party, demonstrate that this is not a trend 
confined to a certain sector of European society or the 
political spectrum.
    That said, in countries ranging from France to Germany to 
Hungary to Poland, right-wing populist parties and governments 
are increasingly trafficking in and turning a blind eye to 
anti-Semitic rhetoric. They are thus engendering climates 
increasingly conducive to violence.
    In instances in which these parties have come to power, as 
in Hungary and Poland, they have embarked on a multifaceted 
effort to undermine the rule of law, weaken governmental checks 
and balances, and impair civil society. As these values 
underpin transatlantic security and prosperity, this should 
alarm us all.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Berschinski follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    The chair notes the presence of our colleague, the 
gentleman from Alabama, Mr. Palmer. I ask unanimous consent 
that Mr. Palmer be allowed to fully participate in today's 
hearing.
    And, without objection, it's so ordered.
    The chair also had noted the presence of the full committee 
chairman, but I think he will grace us with his presence 
shortly.
    The chair now recognizes myself for 5 minutes.
    Dr. Farr and Ambassador Kozak, you both touched on some of 
the discrimination against people in places like Iran and Saudi 
Arabia. Mr. Berschinski had mentioned how sometimes the 
oppressing people based on religion can be a proxy for just 
political disagreements, but in Iran and Saudi Arabia the root 
of the discrimination is just based on a sharia-based society. 
I mean, the law is being applied to where, if you're not of 
that particular persuasion, you are disfavored, correct?
    Mr. Kozak. Yes. I mean, I think both are true, that you're 
disfavored because you're not of that persuasion, but it's also 
people who want to maintain political power make themselves the 
interpreters of what is the applicable religious doctrine. So 
they play off each other to a very bad effect.
    Mr. Farr. Couldn't agree more. This is religious 
persecution, plain and simple. It's motivated by a religious 
view that certain religious opinions and groups are not 
acceptable. Ms. Arriaga has talked about these Baha'i in Iran, 
these women who have been in prison for 10 years for nothing 
more than being Baha'i. That's religious persecution par 
excellence, if I can put it that way.
    Mr. DeSantis. So what--because you had mentioned some of 
the countries in Africa that don't have the same problems. What 
is the distinction between those?
    Because I noted, you know, the President of Egypt, el-Sisi, 
he gave a speech in front of some of the Islamic clerics, and 
he said, look, you can't have a faith that views its role to be 
at war with people who disagree with you. So he was, I think, 
trying to chart a course where, you know, you can have an 
Islamic-based society that doesn't necessarily do that.
    But what separates the Irans from the countries that, even 
though they have Muslim majorities, are not trying to 
discriminate against non---and it's not just non-Muslims. I 
mean, you've got to be this certain type of Muslim if you're in 
Iran.
    Mr. Farr. Precisely so. And I think the answer lies in the 
history of these countries, but it also, in these seven West 
African countries, has to do with the fact that they've 
discovered this works. I mean, it produces more economic 
growth, it produces more political civility, people are killing 
each other less, people are freer.
    So some of this is just practical. And what I've called for 
is for us to be a little bit more down to Earth in the way that 
we can convince governments that it's in their interest to 
allow greater religious freedom or at least religious 
tolerance. Move away from some of these crackdowns.
    Each government is tough--and you named the two toughest, 
frankly, other than North Korea: Iran and Saudi Arabia. They 
are very, very difficult. But it doesn't mean we should not be 
really trying to make the self-interest argument to them, 
particularly in Iran, where you have, it seems to me, a large 
number of younger Iranian citizens who are generally pro-
American. They are open to some of these messages, but if they 
speak out, they're going to get hurt. We need to address those 
problems too.
    Mr. DeSantis. Well, I hope that--I mean, the practical 
point you make about the experience clearly is lost on the 
ruling elites in Iran. But, hopefully, throughout Iranian 
society, where I think you do have people who are much more 
pro-Western in terms of some of their values, that that could 
be an impetus to eventually go in a different direction with 
that society. Because, I mean, it's a totalitarian state.
    What about the suspension of the visas for people who are 
denying religious freedom? Ms. Arriaga, you mentioned it. It's 
in the law. I mean, my view is we ought to enforce that. I 
mean, if we're not going to enforce this stuff, then why are we 
even passing it?
    What has been done to do that? I mean, I think if we 
followed the law, it'd be very difficult for people from Iran 
and Saudi Arabia to get visas to come here, but yet that 
happens.
    Ms. Arriaga. We need to have a more comprehensive way to 
keep those lists. We know for a fact that there are thousands 
of the children of human rights violators around the world that 
come here to go to school and go to college here, and the Wolf 
Act precisely is asking for a more comprehensive list of 
violators as well as a more comprehensive list of conscience 
prisoners. So making sure that we have the correct information 
is a good place to begin.
    Mr. DeSantis. Ambassador Kozak, what's the answer?
    Mr. Kozak. Yes. No, we've found that the visa denial is a 
very effective tool, whether it's for human rights violations 
generally or religious freedom violations in particular.
    One of the complications of making lists is that there are 
multiple bases for denying people visas, and the consular 
officers tend to take the easiest one. So if you have someone 
who has committed extrajudicial killings or torture, they're 
banned anyway as part of the Immigration and Nationality Act, 
so they don't need to go to the question of did they do this 
for religious reasons or did they do this for human rights 
reasons. So it makes compilation of lists a little bit 
complicated.
    But it's a very effective tool, and we've deployed it, I 
think, to great effect in a number of places.
    Mr. DeSantis. Thank you. My time is up, and I will 
recognize the ranking member for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    Let's take this from sort of a 30,000-foot level. I know 
that President Trump has recommended a 30-percent cut in the 
State Department budget. That's for the State Department and 
also USAID. Let me put it in the words of a Republican Senator, 
Lindsey Graham. He described that move, cutting the budget by 
30 percent, as, quote, ``radical and reckless.''
    Ms. Arriaga, your feelings on that?
    Ms. Arriaga. The United States Commission on International 
Religious Freedom makes recommendations to the State 
Department, but we do not take a position on its budget. I'm 
sure Ambassador Kozak will be happy to answer that question.
    Mr. Lynch. Mr. Kozak, she just threw you under the bus, but 
go ahead.
    Mr. Kozak. I support the President's budget request----
    Mr. Lynch. Oh, do you?
    Mr. Kozak. --as any administration----
    Mr. Lynch. Okay.
    Mr. Kozak. --witness would. But----
    Mr. Lynch. Mr. Berschinski, how about you?
    Mr. Berschinski. So, as I mentioned a little bit in my 
testimony, I think, overall, the budget cuts are pretty 
reckless. I think that they were made out of the gate, without 
appropriate understanding of the nature of diplomacy, the 
number of complex issues the State Department and USAID are 
working through. I think ultimately they're going to harm our 
ability to promote human rights and religious liberty as well.
    Mr. Lynch. Fair enough.
    So, Ms. Arriaga and Mr. Berschinski, you both bring up the 
situation of Russia in your written remarks. As you've both 
noted, last year, new Russian laws effectively criminalized all 
private religious speech not sanctioned, not approved by the 
Russian Government--sort of a government filter on religious 
speech.
    Also, the Jehovah's Witnesses were banned in the North 
Caucasus. Particularly in Chechnya and Dagestan, security 
forces continue to carry out arrests and kidnappings of people 
suspected of any link to, quote, ``nontraditional Islam,'' as 
defined by the government.
    So, Mr. Berschinski, do you think that Russia's repression 
of the religious rights of its own people and those of 
neighboring countries is something that should be of particular 
concern to the United States?
    Mr. Berschinski. I do.
    And I wouldn't limit it to just repression on religious 
grounds. In addition to all the things you mentioned, the 
Russian Government is involved in a widespread focus on 
repressing any actor or organization that can pose a challenge 
to state control.
    So we see that in terms of journalists and opposition 
politicians murdered and imprisoned. We see it in terms of 
broad-based attacks on NGOs working on human rights and 
religious freedom, certainly, but also on issues of health and 
the environment, forcing dozens to close, many more tarred as 
foreign agents, as traitors, harassed, raided, and so on.
    We see a media landscape that at one point had a fairly 
free and fair media environment that's now essentially a 
propaganda machine directed and controlled by the Kremlin. We 
see it in terms of what should be described as pogroms against 
gay people in Chechnya, detaining them illegally, abusing them, 
and, in some cases, murdering them.
    So we see this repression across the board right now in 
Russia. And I think that we can draw a tie between the 
repression that the Russian Government is enacting at home and 
its behavior abroad, some of which was mentioned earlier in 
terms of the invasion of Ukraine, annexation of Crimea, the 
attacks on the Tatar Muslim minority population there, as we 
all know, the Russian Government's involvement in Syria and the 
Russian Government's involvement in both the U.S. Presidential 
election and what seem to be continuing efforts to raise 
societal tensions in the United States and in countries across 
Europe.
    I think this is a continuing threat, and I feel that there 
is reason for the U.S. population to be concerned, because the 
repression at home is tied to some of these behaviors abroad.
    Mr. Lynch. Thank you.
    Ms. Arriaga, in the most recent report that I have on the 
U.S. Commission on International Religious Freedom, they talk 
about what's going on in eastern Ukraine and also in Crimea. We 
don't hear a lot about that. What is going on? That report 
seems to lay out some very repressive activity.
    Ms. Arriaga. Yeah. USCIRF continues to receive weekly 
reports of Putin's thugs acting with impunity. The Jehovah's 
Witnesses have even produced, for instance, videos, information 
being planted in their houses of worship. And, unfortunately, 
in Ukraine and Crimea, we have received reports of people being 
arrested arbitrarily and also being executed without a trial.
    John Ruskay, a fellow commissioner, has adopted a Muslim 
political prisoner from Russia. He was accused of studying 
pacifist Islam. His name is Bagir Kazikhanov. And we are 
advocating for individuals, humanizing the story and also 
highlighting what's going on in Crimea and the Ukraine.
    Mr. Lynch. Thank you, Mr. Chairman. My time has expired. 
Thank you for your courtesy.
    Mr. DeSantis. Thank you.
    The chair now recognizes Chairman Foxx for 5 minutes.
    Ms. Foxx. Thank you very much, Mr. Chairman, and thank you 
for convening this hearing.
    Ambassador Kozak, I believe the freedom-defending world can 
do more to prevent atrocity crimes if it can deter severe 
violations of religious freedom earlier on. The Frank Wolf Act 
amends the 1998 International Religious Freedom Act in several 
ways, including by creating the designating persons list and 
sanctioning mechanisms for non-state actors.
    Could you elaborate on how this provision of the act could 
be used to address violations of religious freedom, 
particularly those committed by Burmese security forces, non-
state actors, and other nationalist groups and individuals 
against the Rohingya minority facing ethic cleansing?
    Mr. Kozak. Thank you, Madam Chairman.
    The act does give us some additional tools in being able 
to--I mean, obviously, we have spoken out against non-state 
actors who've committed these gross violations, as Secretary 
Tillerson did with respect to the genocidal acts of ISIS in 
Iraq, and we have been able to speak out against individuals. 
But I think this will give us an opportunity or an impetus to 
put them together more methodically.
    The Rohingya situation today is just appalling. The attacks 
with security forces and also societal attacks have resulted, 
at this point, in half of the people in Rakhine State, half of 
the Rohingya, leaving and living across the border in terrible 
conditions--murders, rapes, just every manner of atrocity 
committed against them.
    We have, as I think you know, been trying for years to find 
some way to throttle back people's behavior in this respect and 
have appealed to the government, appealed to the Burmese 
military to stop it. But it's a little bit what the chairman 
said: People in power--sometimes the argument as to what's in 
the best interest of the country doesn't resonate with them 
because it's not in their best interest in terms of maintaining 
their own power. And trying to find the right combination of 
carrots and sticks to persuade them to do otherwise is 
difficult.
    But it's something that's got to be done. It's something 
we've spent an awful lot of time and energy on, trying to find 
the right combination of programs, diplomatic activity, advice, 
pressure. And hopefully we will find a way to throttle it back, 
because it's a terrible situation that's getting worse.
    Ms. Foxx. Thank you.
    Ms. Arriaga, I note in your testimony you highlighted how 
religion has been used to disempower women and that women and 
girls are often victims of religious freedom violations, 
extremism, and discriminatory personal status laws.
    Could you discuss the complexities and synergies between 
the rights of women and girls, freedom of religion, and what 
religious freedom advocates have been doing to address the 
issue?
    Ms. Arriaga. Thank you, Madam Chair.
    We at the Commission have issued a brand-new report 
precisely on the synergies between religious freedom and 
women's rights. We find that countries that fully respect 
religious freedom also ban child brides, they also allow 
communities to reject harmful practices such as female genital 
mutilation. Women who are divorced are not forced into poverty. 
Women are not forced to convert to the religion of the person 
they're marrying. Marriages are recognized.
    It's been, unfortunately, our experience that women's 
rights and religious freedom advocates were not working 
together. They thought that rights were pitted against each 
other. However, after we issued this report, we have met with a 
number of academics at Oxford, we have met a number of 
parliamentarians through the International Panel of 
Parliamentarians for Freedom of Religion or Belief, and we have 
found there has been a great reception. We think we can double 
the advocates for religious freedom if we take in advocates for 
women's rights as well.
    Ultimately, human rights are interdependent, and to take 
one out of the equation arbitrarily or artificially hurts the 
rights of everyone else. And every single human right should be 
considered in tandem as cooperating and collaborating with each 
other.
    Ms. Foxx. Thank you very much.
    I yield back.
    Mr. DeSantis. The gentlewoman yields back.
    The chair now recognizes Mr. Gomez for 5 minutes.
    Mr. Gomez. Thank you, Mr. Chairman.
    When I was sworn into Congress, I said that one of my main 
duties was to fight for my constituents, no matter where they 
were from, no matter what God they worshipped, no matter the 
color of their skin; if they came here, they believed in our 
values, contributed to our country, that they deserved a place 
here in the United States of America.
    And freedom of religion and freedom of expression are the 
bedrock freedoms on which our country was founded. It is these 
freedoms that should give us the authority and ability to do 
what we can to promote these freedoms with people around the 
world. It is the moral authority upon which our ability to 
promote international religious freedom rests.
    Unfortunately, religious freedom under this administration 
means nothing more than giving certain groups the license to 
discriminate against people of color, Muslims, people of a non-
Christian faith, and the LGBT community. It is deeply 
disturbing to me that some people have used religious freedom 
as their basis to fire people who don't share the same 
religious beliefs or who are LGBTQ. Where I come from, that is 
just discrimination, plain and simple. There is no need to 
dress it up.
    I believe that this administration's repeated attempt at a 
Muslim ban, the normalization of racism by this Department of 
Justice, and the brazen attacks on the LGBT community undermine 
our moral authority and undermine our ability to promote 
religious freedom abroad.
    Quick question. Last week, Attorney General Sessions issued 
a directive to all Federal agencies which included the 
following guidance: ``To the greatest extent practicable and 
permitted by law, religious observance and practice should be 
reasonably accommodated in all government activity.'' The Human 
Rights Campaign, a national LGBT rights group, called these 
guidelines a, quote, ``all-out assault on civil rights'' and a, 
quote, ``sweeping license to discriminate.''
    Mr. Berschinski, do you believe that the rolling back of 
regulations protecting LGBT groups in the name of religion 
promotes religious freedom?
    Mr. Berschinski. Thank you, Congressman.
    What I would say in response to that is that I think that 
the protections for religious freedom that are enshrined in the 
First Amendment do not and should not give broad license to 
discriminate against any class of people.
    So, with the understanding that some of the memoranda that 
the Department of Justice has put out are long and complex, 
just came out and have yet to be fully analyzed, I would say 
that I would hope that the Department of Justice would act 
fully in keeping with that spirit.
    Mr. Gomez. Thank you.
    Commissioner Arriaga, you've mentioned that some people use 
discrimination against other religions as a way to promote 
their own self-interest. Have you seen any of that here in our 
country recently?
    You don't have to answer that question.
    Let me ask you one other question. The United States 
Commission on International Religious Freedom does not review 
repression of religious freedoms in the United States. How 
would the banning of a particular religious group affect your 
analysis of religious freedoms in this country?
    Ms. Arriaga. I'm sorry. Could you repeat the question, 
please?
    Mr. Gomez. How would the banning of a particular religious 
group affect your analysis of religious freedom in this 
country?
    Ms. Arriaga. Mr. Gomez, my name is Kristina Arriaga. As a 
fellow Latino, I think I know a little bit of what you're 
talking about in terms of discrimination.
    The United States Commission on International Religious 
Freedom advocates for all religions in every single country. We 
find that banning one religion or granting preference to one or 
the other is generally not in accordance with the Universal 
Declaration of Human Rights, Article 18.
    Mr. Gomez. Great.
    Mr. Berschinski, according to a recent report by the 
Council on American-Islamic Relations,there has been a, quote, 
``91-percent increase in anti-Muslim hate crimes during the 
first half of the year compared to the same period in 2016.'' 
Would a 91-percent increase in a foreign country over a 6-month 
period raise concerns for you?
    Mr. Berschinski. Yes, absolutely, it would.
    Mr. Gomez. Thank you so much.
    One of the things that I'm trying to highlight is that our 
ability to promote religion freedom abroad rests on how people 
view how we promote that same freedom in our own country. 
Anything that undermines it makes our ability less so and 
weakens our ability to protect religious freedom of individuals 
in other countries.
    Mr. Chair, I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes the vice chairman, Mr. Russell, 
for 5 minutes.
    Mr. Russell. I thank the chairman.
    And I also thank the chairman for holding this important 
hearing. I think it's vital not only to, obviously, how we 
treat all human beings, but also it intertwines in so much of 
our foreign policy and our relations around the globe in making 
sure that these differences and these pretexts do not become a 
thing that divide and ultimately result in the slaughtering of 
thousands of innocent people, which seems to be the trend of 
history.
    Mr. Chairman, I guess I would like to speak a little bit 
about-- you know, having extensively traveled the globe and 
fought in several different places around it, while some of our 
colleagues may imagine that we have such religious oppression 
in this country, this is one of the greatest nations that we 
have as far as religious tolerance. Differences in religious 
opinion? Sure. Protected by the First Amendment? Also.
    But those opinions being forced upon religious groups to 
force them to violate their rights of conscience, which are 
also protected in the First Amendment, we can't use one group's 
pretext or agendas to violate the religious beliefs of another 
group. And in that, I think the United States does very well.
    As I look at this list of the CPC recommendation nations, 
there's a trend that I find kind of interesting. Sixty percent 
on the recommended list are Asian countries. And we often focus 
on, you know, the habitual troublemakers, you know, that we 
become accustomed to, but we're seeing 60 percent in Asia, 25 
percent in Africa, and 15 percent in the Middle East. And I 
find that intriguing because oftentimes we don't make the type 
of investments in Asia, and yet this is where we're seeing a, 
just on the CPC list, interesting trend.
    Along that line, too, on the Tier 2 countries, two key 
allies of the United States are on this list, one a NATO ally, 
which is of particular concern.
    And, Ms. Arriaga, you intrigued me with your visa 
restriction but extend that to the education piece, which I 
think would be useful.
    But, as I try to walk through that, one of the successful 
programs that we have is the international military exchange 
program, IMET. And, you know, in decades past, we're kind of 
darned if we do and darned if we don't. You know, if we try to 
promote human rights through the education of military 
officers, most of which will grow up to be major commanders and 
generals in that nation and, you would hope, would be trained 
in our values, you know, they can actually do some good. On the 
other hand, if you exclude them, then, you know, they will not 
be exposed to any of those Western things.
    And one of the things we see with Turkey right now, as they 
continue to oppress, is even ferreting out those that have been 
trained in Western countries, particularly the United States, 
out of their military. And that causes great alarm.
    So I've stated several observations here, and I would like, 
kind of, your commentary on that and anyone else that would 
like to opine on some of these observations and what concerns 
you might have. Thank you.
    Ms. Arriaga. Thank you, Mr. Russell.
    I just came back from Turkey 3 days ago. The situation 
there is extraordinary. There is an enormous amount of stress 
and anxiety on the Turkish people on the minority religious 
communities. As you know, Pastor Brunson has been incarcerated; 
it's been a year last Saturday. And, regrettably, as you also 
know, 24 hours before USCIRF's arrival to Turkey, a DEA 
officer, whose a Turkish national, was arrested.
    So I think right now Turkey stands as a NATO ally who's 
having great difficulties respecting human rights in that 
country.
    Mr. Russell. Which is part of the NATO charter, by the way. 
It's embedded in that alliance.
    Do you see resistance in calling out Turkey in these, you 
know, Tier 2 countries? Are you getting pushback on that?
    Ms. Arriaga. Well, USCIRF continues to be greatly troubled 
by the recent developments. And, unfortunately, when we see 
such a bad panorama for human rights in general, for all the 
journalists getting arrested, generally religious freedom also 
falls in the same category.
    We met with several religious communities in Turkey that 
still have no legal persona. Turkey has spent a great deal of 
the summer revising its textbooks. There is a mandatory 
religious education, which characterizes anyone from a minority 
religion as being outside of the spectrum of, many times, 
acceptable behavior. This is very traumatic for children.
    So we will continue to watch closely what's going on.
    Mr. Russell. Well, I thank you for that.
    And I would love to hear from the others, but, 
unfortunately, Mr. Chairman, my time has expired. I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes the gentleman from Georgia, Mr. 
Hice, for 5 minutes.
    Mr. Hice. Thank you very much, Mr. Chairman.
    And I want to thank each of our panelists for being here 
this morning and for the role that each of you play in 
defending religious liberties around the world, regardless of 
what that religion may be.
    My background is that of a pastor for about 25 years before 
being in Congress. And I personally have seen a lot of what you 
deal with, and this has been an area of great concern of mine 
for a long time. And I appreciate the fact that y'all are on 
the tip of the spear in trying to deal with this and keep us 
informed.
    Religious liberty is a universal right, not just something 
that we cherish here in America. It should be something that is 
cherished around the world, regardless, again, of what the 
religion may be that is held by an individual. We've brought up 
today already some in the Muslim communities, be it in places 
like Burma or Russia or the Middle East, even, where the 
Yazidis--I mean, we're seeing that.
    The one area of concern for me, not so much with your work, 
but it seems at least with the media and otherwise that is 
largely missing is the persecution of Christians around the 
world that seems to largely go unnoticed.
    And I recall in November 2012 that, from Germany, Merkel, 
made the comment that Christianity was the most persecuted 
religion in the world. And, of course, that statement was met 
with a great deal of criticism, but it's backed up, and there 
have been many, many reports, as you well know, of the plight 
that Christians are facing in many places around the world.
    And, goodness, we can even look at some of the various laws 
of apostasy that many countries have, where, if someone 
converts to Christianity, the punishment can be extremely 
severe and torturous.
    And many of these countries you've mentioned, from Saudi 
Arabia to Iran, Jordan, Kuwait, Qatar--I mean, the list goes on 
and on and on and on. North Korea. We're seeing some horrible 
stories coming out of North Korea. China. In fact, I have a 
resolution to try to call China's hand on some of the 
catastrophes happening there.
    And, bottom line, we just can't allow these things to 
continue. They've got to be brought to the public's awareness 
and to be dealt with.
    Just a couple of questions within all that context.
    Ambassador, let me begin with you. When the State 
Department is considering which refugees are admitted to the 
United States, what role, if any, does the threat of religious 
persecution against an individual play in the determination as 
to whether or not they would be allowed to come to the United 
States as a refugee?
    Mr. Kozak. Thank you, sir.
    It's key. The definition of a refugee is somebody who has a 
well-founded fear of persecution based on religion or political 
opinion or several categories, ethnicity, but religion is one 
of them. So, to qualify as a refugee, if you say, I have a 
well-founded fear of persecution, that is the key thing you 
have to show.
    In terms of deciding, you know, how to allocate our refugee 
numbers around the world, they tend to look at what are the 
most vulnerable populations, the most at-risk populations. And, 
again, that can be based on people who are at risk because of 
their----
    Mr. Hice. Do you believe that allocation is properly 
manifested when it deals with Christians around the world? I 
mean, we've got--the studies I've seen--some 200 million 
Christians around the world suffering persecution in one way or 
another.
    Mr. Kozak. Yeah. And you've got, like, now we're usually in 
the order of 75,000 or 50,000 refugee numbers per year to 
allocate.
    It really depends on the particular area. In some 
countries, I think we've had a high percentage of the refugees 
coming in have been Christians because Christians have been 
persecuted there. In others, it gets----
    Mr. Hice. Let me ask my----
    Mr. Kozak. Yep.
    Mr. Hice. --final question. I've only got 20 seconds. What 
does Congress need to do to help achieve the goal of both 
awareness and of stopping religious persecution around the 
world?
    And I'll open that to anyone who would like to answer.
    Mr. Kozak. Well, I think you already have given us a 
tremendous amount of tools. The International Religious Freedom 
Report, which is mandated--and, as Dr. Farr said, it's 
diagnostic, but that's where you start. And we try to do a good 
job of saying what is the problem in each one of these places.
    Then you have the second set of, what do you do about it? 
And there, the tools that have been given--having an office 
with programming, having an ambassador-at-large who can go 
around the world and try to raise awareness of these issues, 
having sanctions that we can apply, whether it's on visas or on 
economic assistance or military assistance or other things--
those are all the kinds of tools you would use for other 
diplomatic efforts. But it's putting the combination together, 
getting across-the-board effort from the government.
    I think one of the things that adds to that, though, is the 
efforts of individual Members of Congress. People do pay 
attention when they hear you and your colleagues speak up on 
these issues, because they know that decisions that affect them 
are made in Congress as well as in the executive branch, and it 
really amplifies the message we're trying to get across.
    Ms. Arriaga. If I----
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. DeSantis. Did you want to----
    Ms. Arriaga. Yeah. If I may add,H.R. 390 has passed the 
House;it's now in the Senate. In the Senate, it was amended to 
include assistance to the Syrian population. It would be 
terrific if this passed and there was more funding appropriated 
immediately for that, for genocide victims.
    Mr. DeSantis. Thank you.
    Mr. Chairman, did you want to ask questions?
    Mr. Gowdy. If the chairman would allow.
    Mr. DeSantis. I think I have no other choice but to allow.
    Mr. Gowdy. Oh, but you do.
    I want to thank you for having this hearing, Chairman 
DeSantis, and for your commitment to religious freedom.
    Dr. Farr, it's good to see you again.
    I asked you a question during the last administration, and, 
in the interest of fairness, I'm going to ask you the exact 
same question under this administration.
    Leave Congress out of it for a second;just focus on the 
executive branch. What are the three things that you would 
change, if you could, at the executive-branch level given the 
fact that we have had a change in administration?What are the 
first three things that should be done, from your perspective, 
in this sphere?
    Mr. Farr. Thank you, Mr. Gowdy, speaking as a fellow South 
Carolinian.
    One of those things has already been done, and that is that 
the--this goes to something Mr. Lynch asked about earlier, and 
that is the budget cuts in the State Department. I agree with 
Mr. Berschinski that this was a bad idea.
    But one of the good things that has happened, in my view, 
is that the Office of International Religious Freedom has 
become larger. And so long as the positions that are being 
moved in there are being moved with the funds to support them--
which I think is the case, but I'm not sure. As long as that is 
the case, that is a good thing. So what I am talking about is 
more staff and more oomph for the Office of International 
Religious Freedom.
    The second thing the Wolf Act requires, and that is that 
the Ambassador-at-Large report to the Secretary of State. Now, 
as has already been mentioned here--I forget who mentioned it. 
It may be my colleague to the left.
    Thank you for mentioning it.
    In the same letter where Secretary Tillerson proposed 
moving these positions under the Ambassador-at-Large, he said 
he is going to report to a lower-ranking official. Well, this 
is pretty clear in the law:The Ambassador-at-Large shall report 
to the Secretary of State.
    Why is that important? Is that a magic wand? No, it's not. 
It, in fact, however, improves the status of the Ambassador-at-
Large in the office, in my opinion, for the governments out 
there and, just as importantly, for American diplomats, who 
have seen historically this position as sort of a, you know, 
just below a high level--let me put it that way--within the 
State Department. I think it's very important, and Congress 
should, in my view, insist that the Ambassador report to the 
Secretary of State.
    But the final thing, the third thing, Mr. Gowdy, is the 
subject of my testimony today,and that is that the 
International Religious Freedom policy of the United States is 
not yet aligned with our national security policy. It's not an 
all-of-government thing. It is still focused in a single 
office, with not enough oomph to do this.
    This may be changing under this administration. There may 
be something in the national security strategy of the United 
States, when it's produced, that draws religious freedom in, as 
I think it should be. But that is a major, major remaining step 
to take, in my opinion.
    Thank you for the question.
    Mr. Gowdy. Yes, sir.
    You touched upon what I find to be a fascinating dualism in 
your opening statement, that our national security interests 
are actually advanced when countries have more enlightened 
policies with respect to religious liberty.
    I like to anticipate arguments on the other side, and 
sometimes the other side--I don't mean Democrats. I mean the 
other side of this issue. Sometimes folks on the other side, 
which are both Republicans and Democrats, will make the 
argument that we need to be more patient with the following 
countries because they are of such significant national 
security interest that we should overlook the following things.
    You made the exact opposite argument, and I want to give 
you a chance to extrapolate on that.
    Mr. Farr. Well, thank you. It's pretty broad without 
focusing on a particular country, but the ones where this 
happens, such as Saudi Arabia--that's a very good example of 
where we need the support of the Saudis. We need cooperation, 
intelligence, military, and otherwise. And yet it is the mother 
lode of Islamist extremism. It is the place where the ideology 
that energizes Islamist extremism begins.
    We need to do both. There is no simple answer to any 
foreign policy question, let alone one that has to do with 
religion.
    I think we are deficient in providing to the Saudis reasons 
why it's in their interest to begin--not to adopt the First 
Amendment or move toward religious freedom in the broad way 
that we view it here, but toward religious tolerance, because 
it can begin to benefit them.
    And, in fact, we have opportunities. The regime itself 
talks a very good line internationally when it talks about its 
approach to their own religion. We should be working--and we 
are working, but I think we treat this almost as a boutique 
issue. We don't have enough resources working with the Saudis 
behind the scenes to convince them it's in their interest.
    The same would be true of Iran. It would be true of China. 
It would be true of any country where I believe we can make 
this an all-of-government effort to convince them it's in their 
interest.
    That's a broad answer to a broad question. I hope I'm being 
responsive.
    Mr. Gowdy. You did. Thank you, Dr. Farr.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. DeSantis. Thank you, Mr. Chairman.
    The chair now recognize Mrs. Demings for 5 minutes.
    Mrs. Demings. Thank you so much, Mr. Chair, and to our 
ranking member as well.
    And to our witnesses,thank you for being with us.
    According to a United Nations official, the Burmese 
Government has been carrying out a, quote, ``ethnic cleansing'' 
of the Rohingya, an ethic group, as you all know, that 
primarily belong to the Muslim faith. According to the United 
Nations, 500,000 civilians have fled from Burma to Bangladesh 
since August 25th, 2017, alone.
    Commissioner, can you please speak to how the Burmese 
Government is essentially attempting to erase the Rohingya from 
Burma?
    Ms. Arriaga. We at USCIRF have monitored that situation 
with great concern. We received reports that some of the 
Rohingya Muslims were even walking barefoot over barbed wire to 
try to get to Bangladesh and flee. And, in fact, USCIRF is 
planning to have a delegation go to Burma and Bangladesh in the 
next few weeks precisely to address this issue. It is, without 
a doubt, an incident of ethnic cleansing without precedent in 
that country.
    Mrs. Demings. Burma has been listed as a country of 
particular concern by the State Department for over a decade.
    Commissioner, again, has Burma's appearance on the State 
Department's countries-of-particular-concern list had any 
affect on the regime's persecution of religious minorities?
    Ms. Arriaga. It's hard to tell. The developments in the 
last few weeks have, again, been unprecedented. We have watched 
them with great concern, and every single voice needs to rise 
to defend the Rohingya Muslims.
    Mrs. Demings. Dr. Farr, what do you believe the United 
States can do to stop the, quote, ``ethnic cleansing'' that is 
occurring?
    Mr. Farr. Well, I, frankly, prefer to call it religious 
cleansing. I mean, these are Muslims, and this is religious 
persecution of the first order.
    And you're quite right, they've been on the list for over 
10 years. I was in the Office of Religious Freedom when these 
lists were created by the law and began to implement them,so I 
think it's actually been longer than 10 years. And while I 
would never suggest that these lists are not important--I said 
in my testimony they are vitally important--they're just lists. 
They're just pieces of paper that list a bunch of countries on 
them.
    And we say we're looking at economic sanctions. As far as I 
know, there's only been one set of economic sanctions--I could 
be wrong about this, and Ambassador Kozak can correct me. But 
the last time I paid attention to this, there was only one 
country in the world that we had ever imposed new economic 
sanctions on because of the 20-year-old International Religious 
Freedom Act,and that, as I recall, was Eritrea. And, to say the 
very least, it didn't work. And that was part of my reason for 
arguing in my testimony that we need more than words and we 
need more than sanctions.
    So whatever we've tried in Burma has not worked. I think we 
have an opportunity now not only to condemn them, which we 
should be--we should be speaking out. We need Ambassador 
Brownback in that position so that he can go to Burma and speak 
about this, which I think he will. But we also need to begin to 
work with the Burmese to get in front of this problem, because 
it will happen again. And the fact that they're on this list 
won't make a bit of difference in the world, in my opinion.
    Mrs. Demings. Last week, while addressing the United 
Nations Security Council, the U.N. Secretary-General said this, 
and I quote: ``The situation has spiraled into the world's 
fastest-developing refugee emergency, a humanitarian and human 
rights nightmare.''
    Mr. Berschinski, should the United States enter into 
negotiations with Bangladesh to allow for a certain percentage 
of displaced Rohingya to resettle in America?
    Mr. Berschinski. Well, I wouldn't want to get out front of 
the United States' overall refugee resettlement program. As I 
understand it--and Ambassador Kozak can speak to this in more 
depth--there are, among other things, related to U.S. efforts 
on resolving the crisis, intensive talks going on right now 
with the Government of Bangladesh.
    But I think, to your larger point, perhaps, this speaks to 
the cap on refugee resettlement overall that the Trump 
administration has put in place. I would say that, were I able 
to respond to Chairman Gowdy's question along the lines of what 
three things could this administration do to improve the plight 
of persecuted religious minorities of all kinds, raising that 
cap would improve the lives of Christians, Muslims, and others.
    Mrs. Demings. Thank you so much.
    I yield back.
    Mr. DeSantis. The gentlelady yields back.
    The chair now recognizes the gentleman from Alabama, Mr. 
Palmer, for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman. And thank you for 
allowing me to participate in this very important hearing.
    Ambassador Kozak, the State Department's most recent report 
discusses a number of countries' failings on religious freedom. 
Many of those countries are a source of threats to the United 
States. But that list doesn't include non-state actors, does 
it?
    Mr. Kozak. The current list does not include non-state 
actors because they--those were added by the Wolf Act, which 
will kick in this year. So the list that will come out next 
month, I guess, at this point, will also include non-state 
actors.
    Mr. Palmer. So the list will? Does the State Department 
have any concern about including them on the list?
    Mr. Kozak. No, sir. It was simply that we were responding 
to the earlier mandate from Congress,and this has now 
broadened. In some ways, it actually helps to provide context, 
because, in many of these places, the worst atrocities are 
being committed by non-state actors. Witness the genocide 
committed by ISIS in Iraq and Syria. And it just didn't fit 
within the reporting mandate before, and now it does,and we're 
happy for it.
    Mr. Palmer. And you have the same thing with the Taliban 
and Boko Haram and those groups.
    Mr. Kozak. Right, any group that we find is a group of 
particular concern with respect to committing the most serious 
acts of countering religious freedom.
    Mr. Palmer. Those are the hard, extreme cases of the 
violation of religious freedom. Would you agree with that?
    Mr. Kozak. Yes, sir. The way it's defined in the act is 
it's particularly severe violations, such as torture, 
extrajudicial killings, long-term imprisonment without charges, 
use of rape against people. So it's not, you know, the 
unfortunately run-of-the-mill thing, like refusing to register 
or provide legal status to a particular group or even the bans 
on allowing groups to worship. This is where it gets violent 
and people are being killed or----
    Mr. Palmer. There's softer forms of religious persecution 
or violation of religious freedom that would include 
discriminating against who they could hire or who they could 
associate with. Would you agree that happens as well?
    Mr. Kozak. Oh, absolutely, sir.
    Mr. Palmer. Would you agree that that happens in the United 
States? We had one of our colleagues make some----
    Mr. Kozak. Yeah.
    Mr. Palmer. --allegations along those lines. I'd just like 
to point out that, you know--and we're really focused on what 
goes on internationally, and I think appropriately so, but 
there's also violations that have occurred in the United States 
that violate an individual or a particular denomination or 
religion's right to free exercise.
    Mr. Kozak. Well, what we tend to say, sir, on violations 
internationally is that every country violates human rights, 
including the human right of international religious freedom, 
because countries are made up of humans. But the question is 
what does a country do about it when that happens. Do we have 
appropriate laws? Do we have appropriate enforcement 
mechanisms?
    Mr. Palmer. Well, I just want to point out----
    Mr. Kozak. And I think that's where we're proud of our own 
mechanisms.
    Mr. Palmer. --that here in the United States we're not 
immune to that.
    Dr. Farr, we've seen that, where Catholic Charities and 
nonprofit groups and other groups have been taken to court over 
their refusing to hire people who don't practice their faith or 
who don't believe the things that they believe. Does that 
concern you?
    Mr. Farr. It does.
    And to return to something that Mr. Gomez had said--and I 
completely agree with him, although I may not apply the same 
principle as he did--and that is that,if we don't understand 
what free exercise of religion is and what it means in this 
country, how can we convince other people abroad that it's of 
value to them?
    And you're quite right; in my view, the free exercise of 
religion is what this means. It means the full equality of all 
religious groups and citizens in our country and certainly the 
right of religious groups of all kinds to adhere to their most 
fundamental values and not be forced by government, whether at 
the State, local, or national level, to violate their 
consciences.
    So we do have a problem. We need to solve it.
    Mr. Palmer. And I think that's particularly true 
considering that it is in our Constitution as the First 
Amendment that our government will make no law prohibiting the 
free exercise.
    And I just want to point out, Mr. Chairman, that we're not 
immune to this. And there was a particular example of this, a 
Supreme Court decision that was a unanimous decision against 
the United States Government, the previous administration, 
Hosanna-Tabor v. EEOC, in which members of the Supreme Court--
again, 9-0 decision.This was a case in which our government 
argued that a religious organization or denomination could not 
have the freedom to hire who they wanted to, who practiced 
their religion, shared their beliefs. And in a 9-0 decision--
you even had a couple of justices call it extraordinary or 
amazing, including Justice Kagan. I just think we need to be 
aware of that as well.
    I yield back. And I thank you again for allowing me to 
participate.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes Mr. Welch for 5 minutes.
    Mr. Welch. Thank you, Mr. Chairman.
    And I thank the panel for your testimony.
    In 2016, the U.S. Envoy to the Organization of Islamic 
Cooperation helped get this passed, the Marrakech Declaration, 
which, as you know, affirmed the support of over 250 Muslim 
leaders for defending the rights of religious minorities in 
predominantly Muslim communities.
    Dr. Farr, what's your view of the Marrakech Declaration as 
far as enhancing the national security of the U.S.?
    Mr. Farr. Thank you for that question, Mr. Welch.
    I think the Marrakech Declaration is a major step forward. 
It's realistic. It's not some pie-in-the-sky declaration of 
something that does not emerge from the heart of Islam. Sheikh 
bin Bayyah and the others who are behind this declaration, in 
my view, have constructed a modest but realistic declaration 
from the heart of Islam, which many Muslims agree with, that 
Islam is not a religion that has to put others at a 
disadvantage.
    Again, I want to--this is not a declaration of religious 
freedom as we would have it. But it does no good to have people 
put words out there that don't mean anything. So I am a big 
supporter of this because I think it is, in fact, precisely the 
kind of thing that our government should be behind, my 
religious freedom institute is behind, and we are, in fact, 
working with these very people----
    Mr. Welch. Thank you.
    Mr. Farr. If I could just get----
    Mr. Welch. Go ahead.
    Mr. Farr. --this one more--I know we've run out of time.
    Mr. Welch. Yeah.
    Mr. Farr. This is--they recognize they have a problem.
    Mr. Welch. Right.
    Mr. Farr. And we need to help them solve that problem, not 
by wagging our finger or putting them on a list, but by helping 
them see and perform the duty that they already see for 
themselves. Put it that way.
    Mr. Welch. Right. And that's called diplomatic engagement. 
And I know Secretary Tillerson, among other things, is focusing 
on a reorganization of the State Department. And I think it's a 
fair concern for any new Secretary of State to try to figure 
out how best to organize the Department and allocate its 
limited resources. But my understanding is that one of the 
proposals is eliminating the U.S. Special Envoy to the OIC.
    Ambassador Kozak, what's your view about the implications 
of that recommendation?
    Mr. Kozak. Well, first, let me say that I've worked very 
closely with our previous ambassadors, representatives to the 
OIC, who have been housed in different places in the State 
Department over the last couple of administrations and even 
some switches during the last administration.
    You know, I'm not going to predict where the Secretary is 
going to come out on the reorg plan, but my understanding is--
or the redesign plan--but my understanding is that he wants to 
fold that function into the Office of Religious Freedom. It's 
currently part of the Office of Religion and Global Affairs, 
which in his letter--which is a straw man that he put out there 
for consultation with Members--would merge.
    So I think the function of having somebody engaged with the 
OIC is one that is intended to continue;it's a question of how 
you place it bureaucratically. And that's a fair thing to be 
juggling.
    Mr. Welch. Yeah. You know, you've had so much practical 
experience in this. There's a tension always in our foreign 
policy and in our State Department responsibilities, the 
realpolitik concerns of our engagement with another country. 
Sometimes they're in conflict with our advocacy for basic 
values like religious freedom. And it would seem to me that the 
job of the Secretary, among other things, is to try to balance 
those so that there's an ongoing engagement and outreach to 
protect the religious liberty of citizens around the world.
    So how would you recommend that we maintain that State 
Department commitment? It's got to be real. It's got to be 
people who are empowered. But it also has to coexist with other 
challenges that this country faces.
    Mr. Kozak. Yes. Well, I think as many of the witnesses have 
said and the chairman and other chairman alluded to, the 
respect for human rights, including religious freedom, is vital 
to getting countries to where they can stand on their own and 
not generate giant security problems for the United States. And 
we've seen that over and over again.
    And, as Dr.Farr points out, it's a question of how do you 
persuade them. Very difficult to persuade the leaders of a 
country that are bound and determined, who think their own 
status in power requires them to do repressive things.
    But that's where we try to, first, work with the society 
writ large. Our bureau, almost all of our programming goes to 
working with nongovernmental organizations to try to change 
societal attitudes and, through that, to try to convince 
governments.
    You also have to get--it's great to have specialty offices, 
like our own bureau, like the Office of Religious Freedom, that 
can develop the arguments and so on, but you do need to spread 
those out so that they're being made--and this, I think, is the 
case in this area--that they're being made by our military 
officers when they're talking to their counterparts to say, 
hey, there's a smarter way to fight this insurgency than the 
way you're doing it. You need to, you know, show greater 
respect for people's rights, you don't want to alienate people, 
and so on.
    So it's pulling that all together. Both within the 
Department and interagency, it's absolutely crucial.
    Mr. Welch. All right. Thank you.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes the gentleman from Kentucky for 5 
minutes.
    Mr. Comer. Thank you, Mr. Chairman.
    My first question is to Mr. Berschinski.
    In your testimony, you raised the important issue of rising 
anti-Semitism in Europe that is contributing to a climate of 
violence towards Jewish people in these countries.
    Do you believe that this trend has been exacerbated by the 
continued opposition to the state of Israel that we see at 
various international organizations, particularly the United 
Nations? And how do anti-Israel campaigns, such as the Boycott, 
Divestment, Sanctions, BDS, movement, play into the current 
climate of anti-Semitism?
    Mr. Berschinski. Thank you, Congressman, for that question 
and for raising the issue of anti-Semitism.
    I think there are a lot of different factors involved in 
what we're seeing in terms of anti-Semitism. My written 
testimony goes into this in some depth.
    I think that some of it is a matter of extreme governments 
that are coming into power and are interested in rolling back 
rights across the board in countries with histories of anti-
Semitism, to include mass deportation and killing during the 
Holocaust.
    I think that there are elements related to Muslim 
communities in Europe and some of the anti-Semitic feelings 
that they bring.
    And to speak to your question directly, I also do think 
that there is a dynamic in which people are confusing 
opposition to Israeli Government policies with it being 
appropriate to harbor discriminatory views against the Jewish 
population. So, just like here in the United States, we can 
agree to disagree on various governmental policies, but one 
should never hold that against a religious or ethnic group.
    Mr. Comer. Thank you.
    Next question. Ambassador, does the State Department have 
any concerns with making non-state designations? And do you 
expect to declare non-state actors as EPCs going forward?
    Mr. Kozak. As to the first part of your question--and thank 
you for it--no, we have no problem with it. I had mentioned 
earlier, I think, actually, it helps us, because it's been 
difficult in the past to give context when some of the worse 
violations have been committed by non-state actors but the 
report was only focused on state actors. So, in that sense, 
it's helpful, and we look forward to it.
    As to, you know, whether and which organizations will be 
designated, I would say: Stay tuned. That's the Secretary's 
decision and one that he involves himself in very personally, 
so we'll see that in due course.
    Mr. Comer. Okay. Thank you.
    Let me follow up with this. The IRFA also outlines 15 
Presidential actions that may be initiated toward any country 
found responsible for particularly severe violations of 
religious freedom. How many times since 1998 has the State 
Department recommended a Presidential action be taken against a 
particularly bad religious freedom violator?
    Mr. Kozak. Thank you.
    I think we've had 11 countries over time that have been on 
the CPC list. The current 10, and Vietnam was on at one time. I 
believe in all but three of those countries we have applied 
Presidential actions. In some cases, they were waived. I'm 
thinking Saudi, in particular.
    As Dr. Farr alluded, though, oftentimes these are countries 
that have committed so many bad acts that we already have a 
wide array of sanctions against them. So sometimes putting them 
on the CPC list doesn't add an additional sanction; it double-
hats an existing sanction.
    But that can become important, because when you go to start 
taking sanctions off in response to improvements in other 
areas, if they haven't improved on religious freedom, we're in 
the position of saying, look, we can't revoke that one until 
you make some improvements in this area.
    So the actions have been taken, but it is complicated by 
the fact that there are so many other aspects of the 
relationship that are also problematical.
    Mr. Comer. Okay.
    Thank you, Mr. Chairman. I yield back.
    Mr. DeSantis. The gentleman yields back.
    I want to thank our witnesses again for appearing before us 
today. I thought it was a good hearing, and there was a lot of 
good stuff put on the record.
    The record for the hearing will remain open for 2 weeks for 
any member to submit a written opening statement or questions 
for the record.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
